    COMPUTER SECURITY AND CONTROLS
AT THE AIRCRAFT REPAIR AND SUPPLY CENTER

              U. S. Coast Guard

         Report Number: FI-2003-022
        Date Issued: February 25, 2003
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Computer Security                        Date:    February 25, 2003
           and Controls at the Aircraft Repair and
           Supply Center, U.S. Coast Guard
           FI-2003-022

  From:    Alexis M. Stefani                                       Reply to
                                                                   Attn. of:   Meche: x61496
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    Chief of Staff
           U.S. Coast Guard

           This report provides a summary of the results of the computer security and
           controls audit at the U.S. Coast Guard (Coast Guard) Aircraft Repair and Supply
           Center (the Center), Elizabeth City, North Carolina. The audit was conducted by
           PricewaterhouseCoopers (PwC) LLP under contract with the Office of Inspector
           General (OIG). The audit objective was to determine whether the Center's
           computer operations are adequately secured to ensure integrity, confidentiality,
           and availability of Coast Guard operations in support of the Department of
           Transportation Fiscal Year (FY) 2002 Consolidated Financial Statements.

           We performed a quality assurance review of the PwC audit work to determine
           compliance with applicable standards. These standards include Government
           Auditing Standards and the Federal Information Systems Controls Audit Manual
           published by the Comptroller General of the United States. We assessed PwC
           staff's independence and qualifications, discussed the project scope and objectives,
           approved the PwC audit plan, held biweekly status meetings, and reviewed
           detailed findings before they were presented to the Coast Guard. The audit scope
           and methodology are discussed in Exhibit A.

           The Center performs many functions that support Coast Guard aircraft, including
           maintenance, engineering technical support, supplies, and information technology
           services. The Center also houses two Coast Guard systems that track aircraft
           maintenance, manage inventory for financial statement data, and support aircraft
           operations. PwC conducted its audit of Coast Guard's computer operations and
                                                                                                                   2

provided its reports1, with detailed findings and recommendations, to the Center's
Commanding Officer. The key issues are summarized below.

RESULTS

At the Aircraft Repair and Supply Center, Coast Guard needs to (1) establish a
disaster recovery and business continuity plan, (2) strengthen access security to the
Center computer systems and physical complex, (3) strengthen the Center's
process for controlling changes to production systems, and (4) enhance security
administration functions including background checks on key personnel.

Disaster Recovery and Business Continuity Planning

    Ø The Center did not have a disaster recovery or business continuity plan to
      resume operations timely should the current site become unavailable. The
      Center computer systems support Coast Guard aircraft that carry out
      mission-critical functions, such as search and rescue; securing seaports; and
      law enforcement. If these computer systems become unavailable for an
      extended period, Coast Guard may have to ground its aircraft.

    Ø The Center's protection of critical backup files needs improvement to
      ensure recovery of system operations. While backup files were produced
      on a daily basis, the Center sent the backup files to off-site storage once a
      month. This practice could result in the loss of up to 30 days of data.
      On-site storage also was not adequate. The safe used to store backup tapes
      was not fireproof and was located in an unsecured place without climate
      control. As a result, there is an increased risk that the backup tapes stored
      temporarily at the Center would be unusable or inaccessible in the event of
      a disaster.

Access Security

    Ø Separated employees were not removed as authorized users from the
      computer system access listings. A review of records of 45 separated
      employees showed that accounts for 19 of the 45 employees were still in
      the computer systems. These invalid accounts could be exploited for
      unauthorized use.



1
 PwC provided two detailed reports--one on access security and the other on disaster recovery and business continuity,
system change controls, and security administration. For security reasons, specifics concerning the weaknesses and
audit procedures are not discussed in this report, but were provided to Coast Guard managers during the audit.
                                                                               3

  Ø The Center network computers had vulnerabilities. These vulnerabilities
    did not expose computers to intrusions from the Internet; however, they
    were available for exploitation by personnel working at the Center. For
    example, by testing on-site within the Center, PwC was able to gain full
    access to Center computer systems and about 200 individual workstations.

  Ø The card key system used to control and record individuals' access to the
    building housing the computer systems was not fully activated nor properly
    maintained. Employees separated from the Center and personnel with
    temporary access were not removed from the database. Also, the card key
    system was activated only after regular working hours. As a result, should
    an event occur during regular working hours, the Center would not be able
    to identify individuals who entered the building during the day.

  Ø Physical security and fire protection in the Center's computer building were
    not adequate. Specifically, there were no surveillance cameras or motion
    detectors in the building. Also, auditors observed that the loading dock
    door was open after normal work hours and the exterior door to the
    telecommunications closet was not locked.               Fire-resistance walls
    surrounding the computer center were constructed between dropped
    ceilings and raised floors, rather than from the concrete floor to the top of
    the building. As a result, in the event of a fire emergency, fire and smoke
    could spread easily into the computer center.

System Change Controls

  Ø System development personnel were given full access to production
    systems, including the capability to modify computer programs and
    production data. System changes should be made and reviewed in a test
    environment and only approved changes should be accepted into
    production systems. To ensure these controls are not bypassed or omitted,
    system development staff responsible for making program changes should
    not be given access to production systems.

  Ø Changes to application program codes in the two computer systems were
    not made consistently according to Center procedures. A review of 45
    system changes identified 30 changes where required documentation was
    missing. For example, the Functional Test Checklists were missing or
    contained incomplete sign off for 9 of the 30 changes. As a result, there
    was no evidence that program codes were adequately tested, as required by
    the Center, before being placed into production systems.
                                                                                                                   4

    Ø The Center did not have established procedures for documenting, testing, or
      approving changes to computer operating systems2 in the Center. Without a
      formally documented operating systems change process, unapproved or
      untested changes could be installed on production systems.

Security Administration

    Ø Background checks on employees and contractor personnel were not
      always conducted. A review of 45 individuals identified no documented
      evidence of background checks for 16 of the 45 individuals, consisting of
      military, civilian, and contractor personnel. As a result, the Center may
      have missed valuable information that might keep some at risk personnel
      from working on Center computer systems.

    Ø Employee confidentiality agreements were not always required and security
      awareness statements were not located in the records for 6 of the 45
      individuals reviewed. Also, only 8 of the 45 authorized system users
      reviewed had an access authorization form on file that gave them written
      permission to access the system. The security administrator was not
      periodically re-certifying users' need to access the Center's systems, nor
      routinely reviewing system security violation logs.

    Ø Employee termination and transfer policies were not formally documented
      or enforced. As a result, employee separation checklists were not
      consistently completed. A review of 45 files showed 25 did not have a
      separation checklist. Use of the separation checklist ensures timely
      removal of separated employees from the system access list.

CONCLUSION

In our opinion, the audit work performed by PwC complied with applicable
standards. PwC provided detailed recommendations to the Center management.
The complete listing is in Exhibit B. Therefore, we are not making any additional
recommendations. However, in our opinion, the following are key action items
that Coast Guard officials should implement on a priority basis.

1. Develop and periodically test detailed disaster recovery and business
   continuity plans, deliver the Center's backup tapes for off-site storage more
   frequently than once per month, and store the tapes on-site in a fireproof safe
   located in a secure environment with climate control.

2
  Unlike application program codes, operating systems do not support specific business functions. Instead, they handle
housekeeping functions in computers such as apportioning memory space, scheduling tasks, or managing information
flow among all devices.
                                                                                5

2. Enhance computer systems access security by timely removing access accounts
   for separated employees; correcting vulnerabilities identified on the computers
   tested; and assessing whether corrections are needed for other computers.

3. Strengthen physical security and fire protection by activating the access card
   reader system 24 hours a day; removing separated employees from the system;
   installing surveillance cameras or motion sensors; securing exterior doors to
   the building and telecommunications closet; and extending fire-resistance walls
   surrounding the computer center.

4. Protect production systems by restricting system development staff's access;
   requiring all development groups to consistently document application
   program changes; and establishing procedures for processing changes to
   operating systems software in production systems.

5. Strengthen system security administration functions in the areas of conducting
   background checks; re-certifying users' need to access Center systems on a
   periodic basis; timely reviewing security violations log for followup actions;
   and enforcing use of access request forms, confidentiality agreements, and
   separation checklists.

MANAGEMENT COMMENTS

On December 31, 2002, PwC provided its detailed findings and recommendations
to the Center's Commanding Officer. The Commanding Officer generally
concurred with the findings and has initiated corrective actions based on
consideration of risks, funding, and policy. He also agreed to provide a written
response upon receiving the OIG final report.

OFFICE OF INSPECTOR GENERAL RESPONSE

We request that Coast Guard provide written comments to recommended action
items above by February 28, 2003, to include specific action plans and estimated
completion dates. Because the Coast Guard is transferring to the Department of
Homeland Security (DHS) on March 1, 2003, we will provide this report, along
with Coast Guard action plans and estimated completion dates, to the DHS Office
of Inspector General for followup to ensure corrective actions are taken.

We appreciate the courtesies and cooperation of Coast Guard and PwC
representatives. If you have questions concerning this report, please call me at
(202) 366-1992, or John Meche at (202) 366-1496.

                                        #
                                                                              6


EXHIBIT A. SCOPE AND METHODOLOGY

Under contract with the OIG, PwC conducted an audit of computer security and
controls for the two information systems housed at the Center. The audit covered
FYs 2002 and 2003 activities, and was conducted from October to
December 2002.

OIG and PwC met to discuss the project scope and objectives. PwC conducted the
review based on an OIG-approved audit plan. PwC then conducted fieldwork in
accordance with the plan, including interviews, reviews of documentation,
observation of procedures, and testing of control features.

OIG performed a quality assurance review of the PwC audit work to determine
compliance with applicable standards. PwC conducted this audit in accordance
with Government Auditing Standards prescribed by the Comptroller General of
the United States, the General Accounting Office Federal Information System
Controls Audit Manual, and supplemental PwC review guides.
                                                                                7


EXHIBIT B. PwC RECOMMENDATIONS

Disaster Recovery and Business Continuity Planning

• The Center should develop and test detailed disaster recover and business
  continuity plans, and establish procedures for re-testing these plans on a
  regular basis.

• The Center should deliver backup tapes for off-site storage more frequently
  than once per month, and store the tapes in a fireproof safe located in a secure
  environment with climate control.

System Access Security

• The Center should implement procedures to ensure that systems security
  personnel are timely notified of employee transfers or terminations for
  immediate removal of their user access accounts.

• The Center should automatically suspend inactive user accounts after
  conversion to a new technical platform. Meanwhile, the Center needs to
  develop procedures to ensure inactive user accounts are manually suspended
  after 120 days.

• The Center should restrict system developers' access to the program changes
  control software so developers could not transfer program changes to
  production systems. The Center should also periodically re-certify authorized
  users and eliminate shared user accounts.

• The Center should remove system developers' access to production systems
  and revise procedures for granting access on an as-needed basis.

• The Center should correct vulnerabilities identified on the computers tested
  and assess whether corrections are needed for other Center computers. The
  Center should also consider implementing technical configuration standards by
  using guidance developed by other Federal agencies. If implemented, the
  Center needs to provide training to system administrators and develop
  procedures for enforcement.

Physical Security

• The Center should conduct a formal physical security risk assessment of the
  facility and strengthen general security at the perimeter guard station. The
                                                                                8

   Center should also secure the computer center building by activating the
   physical access card readers all the time, installing surveillance cameras or
   motion sensors, monitoring the computer center 24 hours a day, locking
   exterior doors to the building and telecommunications closet, extending
   fire-resistance walls in the computer center, closing cabinet doors, and
   removing combustible materials.

• The Center should re-certify users authorized to access the computer room in
  the card reader system and develop enforcement procedures for granting,
  re-certifying, and revoking user access and reviewing failed access attempts.

Systems Change Controls

• The Center should uniformly require all development groups to prepare and
  complete documentation supporting program change management process,
  including the formal approval of all relevant checklists, test plans, and other
  change control documents.

• The Center should establish and enforce written procedures for testing and
  implementing changes to the operating systems software used to support
  production systems.

Security Administration

• The Center should work with the Coast Guard Chief Information Officer's
  office to develop, implement, and enforce procedures to update the entity-wide
  security plan on a regular basis (at least annually), ensuring that the formal
  approval of executive management is obtained and documented.

• The Center should reconcile inconsistencies in policies regarding background
  checks, and perform background checks on all Center employees and
  contractors with access to sensitive information, including any access to the
  Center's networked systems.

• The Center should require all personnel to sign confidentiality agreements.

• The Center should require all employees to periodically read and sign Security
  Awareness Statements certifying that they are aware of and understand all
  security policies, their individual security responsibilities, and the
  consequences of failing to adhere to the security guidelines.
                                                                                 9

• The Center should make its security awareness information readily accessible
  to employees.

• The Center should use its standard system access authorization form on a
  consistent basis. Additionally, all access requests, including physical access to
  sensitive areas of the Center and remote access to systems, should be
  completed using a standard access request form.

• The Center should implement a routine process for periodically reviewing
  access privileges to ensure that access has been properly assigned and remains
  properly assigned based on the principle of least privilege required to perform
  assigned job responsibilities. Additionally, the security manager should review
  sensitive system access as it is granted to ensure that the resulting access
  privileges are appropriate.

• The Center should document and enforce formal termination and transfer
  policies and procedures. These documents should include information related
  to the return of property, the suspension of user accounts, and the removal of
  terminated employees from the premises.

• The Center should implement and enforce procedures requiring that the
  separation checklist be completed during all exit interviews.

• The Center should develop and implement formal procedures for routinely
  monitoring security violation logs, promptly investigating any questionable
  activity, and reporting the results to appropriate levels of management.
